 Office of Audits
 Office of Inspector General
 U.S. General Services Administration




Recovery Act Report – Improper Obligation of
Construction Funds for the 1800 F Street
Modernization Project
Audit of PBS’s Major Construction and
Modernization Projects Funded by the American
Recovery and Reinvestment Act of 2009

Report Number A090172/P/R/ R12006
March 30, 2012
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration


    DATE:               March 30, 2012
    TO:                 Cathy Kronopolus
                        Regional Commissioner, Public Buildings Service (WP)

    FROM:               Nicholas Painter
                        Audit Manager, Office of Inspector General
                        Southeast Sunbelt Region Field Audit Office (JA-4)
    SUBJECT:            Recovery Act Report – Improper Obligation of Construction Funds for
                        the 1800 F Street Modernization Project
                        Audit of GSA’s Major Construction and Modernization Projects
                        Funded by the American Recovery and Reinvestment Act of 2009
                        Report Number A090172/P/R/ R12006


During our oversight of the American Recovery and Reinvestment Act (Recovery Act)
projects, administered by the General Services Administration (GSA), we identified
issues related to the subject project that warrant your attention. PBS improperly
recorded an obligation for a contract modification that did not satisfy the specificity
requirements of the Recording Statute. In addition, the modification was not fully priced
prior to execution as required by the Federal Acquisition Regulation (FAR). Lastly, the
modification was inappropriately funded using the Building Operations funds.

Contract Modification Violated Recording Statute and Federal Acquisition
Regulation Requirements

On September 29, 2011, GSA’s Public Buildings Service (PBS) issued an $8,272,249
modification 1 to the construction contract for the 1800 F Street building modernization
project in the National Capital Region. This modification established an “allowance
fund” for the project, but did not provide specific scope or pricing information.
Therefore, PBS’s obligation of funds for this modification was improper because it did
not meet the specificity requirements of the Recording Statute. Additionally, the
modification did not meet FAR pricing requirements.



1
    Modification PS12

                                                1
PBS issued this modification to cover three Contract Line Item Numbers (CLINs),
including information technology system components, security cameras and hardware,
and audio visual equipment. According to the modification:

        Each Allowance CLIN issued by this mod may not be utilized by Whiting-
        Turner Walsh 2 until they provide full detailed proposals for each work item
        that is to be charged against the allowance fund. Once an agreement for
        scope and pricing is established for each work item, the work item will be
        fully definitized by contract modification to establish the cost for the work.

However, to incur an obligation, the Recording Statute states that an agency must have
documentary evidence of a binding agreement between the agency and a vendor for
specific goods or work services to be provided. Additionally, FAR 43.102 (b) requires
that all contract modifications, including change orders, be priced before they are
executed unless doing so would adversely affect the interests of the Government.

As the modification requires an agreement on scope and pricing to be reached at a later
date, neither of these requirements were met. As a result, the obligation is invalid and
the modification violates FAR pricing requirements.

PBS Inappropriately Used Building Operations Funds on the Modification

PBS funded this contract modification using Building Operations funds, and as a result,
may need to notify Congress about the use of the funds.

PBS funded this modification using $8,272,249 from the Building Operations budget
account from the Federal Buildings Fund. However, according to the GSA Budget
Administration Handbook, Building Operations funds are primarily for the operational
costs of owned and leased buildings and the management and administration of PBS
programs. According to PBS Policy on Budget Activity Use for the Federal Buildings
Fund, the funds can only be used on construction projects for limited activities, such as
planning and feasibility studies, prior to receiving line item funding, 3 and for in-house
management costs of the project. As such, Building Operations funds would normally
not be used to directly fund a construction contract. 4

Further, PBS project personnel indicated that the purpose of this modification is to
provide above standard tenant improvements for the 1800 F Street modernization
project; and that these funds were used in accordance with GSA Pricing Policy. Per
GSA Pricing Policy, tenant agencies are required to fund any build-out costs above the


2
  Whiting-Turner Walsh is the construction contractor for this project.
3
  Line item projects have estimated costs exceeding a statutory threshold that require prospectuses
(authorization), and are individually budgeted.
4
  Typically, PBS would fund construction contracts using Minor Repair and Alterations funds for projects
below the prospectus threshold and the Major Repair and Alterations funds for line item projects above
the prospectus threshold. However, as a Recovery Act modernization project above the prospectus
threshold, neither of these sources should be used.

                                                   2
tenant improvement allowance. 5      The information technology and audio visual
equipment appear to qualify as tenant improvements. However, in this instance, the
improvements appear to be for all of GSA, as the tenant agency, and not just PBS. As
a result, Building Operations funds are being used to fund the costs of other GSA
components rather than solely for the management and administration of PBS
programs.

Finally, the modification included security costs priced at $2,126,400. These security
costs include security cameras and hardware as well as lobby security such as
turnstiles. According to PBS’s Pricing Implementation for Project Management, these
security costs should be considered capital expenditures rather than tenant
improvements. As such, they would be budgeted and funded as a project cost under
PBS’s capital program, not using the Buildings Operations funds.

Given these circumstances, the use of these funds may be interpreted as a
reprogramming of funds and PBS may need to notify the appropriate Congressional
committees and obtain their approval to use these funds on this modification.

Conclusion

The Office of Audits informed PBS of these issues on January 19, 2012. Subsequently,
on February 7, 2012, PBS deobligated the $8,272,249 via contract modification. In
addition, in response to the GSA OIG Recovery Act Report – Improper Obligation of
Construction Contingency Funds, PBS will be performing a review of contract
modifications to ensure that funds have been obligated properly.

Recommendations

As PBS has taken corrective action on this contract modification and will be taking
corrective actions related to a prior report, no recommendations are being made at this
time.

Management Comments

In its response to the draft report, PBS management generally concurred with the audit
findings. PBS’s response is included in its entirety as Attachment A to this report.




5
  The tenant improvement allowance is the funding source that enables the space to be built out for
occupancy to meet a tenant agency’s specific requirements.

                                                3
We appreciate the support that has been provided throughout this audit. If you have
any questions about this memorandum, please contact me at (404) 331-5520.


Sincerely,



Nicholas Painter
Audit Manager (JA-4)




                                        4
Appendix A – Management’s Comments
                                 Report Number A090172/P/R/R12006




                         A-1
A-2
Appendix B – Objective, Scope, and Methodology
                                                        Report Number A090172/P/R/R12006

Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides the
General Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund.
In accordance with the Recovery Act, the GSA Public Buildings Service is using the
funds to convert federal buildings into High-Performance Green Buildings as well as to
construct federal buildings, courthouses, and land ports of entry. The Recovery Act
mandated that $5 billion of the funds must be obligated by September 30, 2010, and
that the remaining funds be obligated by September 30, 2011. The GSA Office of
Inspector General (OIG) is conducting oversight of the projects funded by the Recovery
Act.

Objective

The objective of the OIG’s Recovery Act oversight is to determine if GSA is planning,
awarding, and administering contracts for major construction and modernization
projects in accordance with prescribed criteria and Recovery Act mandates. The work
for this report was performed while evaluating modifications to the 1800 F Street
building modernization project.

Scope and Methodology

To accomplish the objective, we conducted fieldwork in the National Capital Region,
reviewed the contract file and other pertinent project documents, met with project staff,
and reviewed applicable guidance and regulations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The planning for this audit is based on the audit plan for oversight of the Recovery Act
projects as well as review guidance being applied to all Recovery Act projects. A
separate guide was not prepared for this project.

Internal Controls

As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls are currently under assessment. Only those
management controls discussed in the report have been assessed.


                                          B-1
Appendix C – Report Distribution
                                                        Report Number A090172/P/R/R12006


Regional Commissioner, PBS (P)
Regional Recovery Executive (11P2)
Regional Administrator (11A)
Regional Counsel (11L)
Division Director, GAO/IG Audit Response Division (H1C)
Audit Liaison (PFF)
Assistant IG for Auditing (JA)
Director, Audit Planning, Policy, and Operations Staff (JAO)
Deputy Assistant IG for Investigations (JID)
Director, Office of Internal Operations (JI-I)
Investigator, Office of Internal Operations (JI-I)




                                             C-1
